PROOF OF SERVICE

I, Christopher Stegawski, state that attached
Petition for Rehearing
Motion for Newly Discovered Evidence
are deposited in Prisoners Mailbox
or
delivered to Prison Authorities
for mailing, First Class USPS, postage prepaid
on the date indicated below at the FCI Satellite Camp, Ashland, KY.

YrC

Christoph Stegawski

July 2, 2021

CERTIFICATE OF SERVICE
A notice of the Petition and Motion will be mailed to
attorneys K. Parker and A. Zouhary, U.S. Attorneys Office,
Cincinnati, OH 45202 on July 2, 2021

July 2, 2021
Christopher Stega ski, pro se, Reg 58010-060
FCI Satellite Camp
POBox 6001, Ashland, KY 41105

